MEMORANDUM:

To:

Tile Following Judges below

From;

Theresa Romain(Petitioner^^—-----

Date:

November 18, 2020

IN REGARDS TO YOUR ORDERS TO BE REVIEWED
Dear Sir/Madam:
Please be advised that the above petitioner filed for Certiorari on February 2018 after a
long and tedious journey with State Supreme Court located in Kingston, the Appellate
Division 3rd Department and the New York Court of Appeals. As part of the continuum of
the standing of the litigative issues presented petitioner is now in the Supreme Court of
the United States, your decision and orders in previous cases against this petitioner are
aligned with the facts of the case.
In order to be compliant it is determined that “all parties to the proceeding in the Court whose judgment
is sought to be reviewed are deemed party to file documents in this court.”
It is quite disheartening for me to reveal that the petition forwarded for Certiorari which was
jurisdictionally in time has been highjacked by the respondents making it jurisdictionally out of time.
Petition for Prohibition, Mandamus and Habeas Corpus was filed. The Petition of Prohibition has been
placed on the calendar on 10/29/20 (No. 20.6164) a copy of the “WAIVER” is enclosed.

Best Regards:
Theresa

Cc:

Hon.
Hon.
Hon.
Hon.

Lisa M.Fisher (Supreme Court)
Christopher E. Cahill (Supreme Court)
Henry F. Zwack (Supreme Court)
Michael Krazier (Justice Court)

1

